Appendix B

32

Case: 18-10374, 04/29/2020, ID: 11675175, DktEntry: 57-1, Page 1 of 5

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

APR 29 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
V.

JAMES DEE GILMORE, Jr.,

No.

U.S. COURT OF APPEALS

18-10374

D.C. No. 17-cr-00804-GMS-l

MEMORANDUM"

Defendant - Appellant,

Appeal from the United States District Court
For Arizona
G. Murray Snow, Chief District Judge, Presiding
Submitted April 17, 2020**
San Francisco, California
Before: BERZON and IKUTA, Circuit Judges, and LEMELLE,*** Senior District
Judge.
After a three-day jury trial, J? t1es Dee Gilmore, Jr., was convicted of

*
This disposition is ___ �t appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

This appeal is ordered submitted on the briefs as of April 17, 2020,
pursuant to Fed. R. App. P. 34(a)(2).
***
The Honorable Ivan L.R. Lemelle, Senior United States District Judge
for the Eastern District of Louisiana, sitting by designation.

33

Case: 18-10374, 04/29/2020, ID: 11675175, DktEntry: 57-1, Page 2 of 5

importation of and possession with intent to distribute 500 grams or more of
methamphetamine. 21 U.S.C. §§ 841(a)(l), (b)(l)(A)(viii), 952(a), 960(a) and
(b)(l)(H).
We find no clear error or abuse of discretion in the district court's decision
to deny suppression of post-arrest statements. After reinitiating contact with
border patrol agents, appellant knowingly, intelligently, and voluntarily waived his
previously invoked Miranda rights, orally and in writing. Edwards v. Arizona, 451
U.S. 477, 484-85 (1981); Maryland v. Shatzer, 559 U.S. 98, 104 (2010). The claim
of coercion due to stomach pain is undermined by appellant's refusal of offers to
obtain medical assistance. Because there was no showing of coercive conduct or
indication of a "severe intellectual impairment," the agents' references to lenience
and admonishments to be truthful did not render appellant's statements
involuntary. United States v. Preston, 751 F.3d 1008, 1027-28 (9th Cir. 2014).
Unlike the defendant in United States v. Vizcarra-Martinez, who was in
possession of a small amount of methamphetamine while being charged with
transporting hydriodic acid with knowledge that it would be used to manufacture
methamphetamine, appellant possessed a small amount of methamphetamine and
was charged with importing and possessing with intent to distribute a larger
amount of methamphetamine hidden in the spare tire of the truck he was
driving. 66 F.3d 1006, 1011-13 (9thCir. 1995). Gilmore reported having found

2
34

Case: 18-10374, 04/29/2020, ID: 11675175, DktEntry: 57-1, Page 3 of 5

the small amount of methamphetamine in the truck he claimed to have borrowed,
thereby linking it to the placement of the much larger amount of methamphetamine
in the truck's spare tire. Therefore, the district court did not abuse its discretion in
refusing to suppress as trial evidence the methamphetamine found in appellant's
pocket, finding that it was inextricably intertwined with the methamphetamine in
the spare tire. See id. at 1012-13.
Under circuit precedent, there was no abuse of discretion in allowing the
government's expert witness to testify, within limitations, on the structure and
operation of drug trafficking organizations, including use of"blind mules". That
testimony was presented in response to the heart of appellant's defense of being an
unknowing drug courier. See United States v. Sepulveda-Barraza, 645 F.3d 1066,
1070-71 (9th Cir. 2011). To the degree the testimony and the government's
closing argument went into broader drug trafficking organization evidence, the
fairly slight excess was harmless in light of the strength of the evidence against
Gilmore.
The district court held that appellant's discovery of methamphetamine in the
truck bed, the appellant's special attention to cleanliness of the spare tire that
contained the larger quantity of methamphetamine, and his admitted search of the
truck for narcotics favored presentment of a deliberate ignorance instruction.
United States v. Heredia, 483 F.3d 913 (9th Cir. 2007). Neither that holding nor

3

35

Case: 18-10374, 04/29/2020, ID: 11675175, DktEntry: 57-1, Page4 of5

the rejection of a recklessness definition charge was clearly erroneous or an abuse
of discretion, nor did the instruction as given require jurors to reject a theory of
actual knowledge before considering constructive knowledge. See id. at 923-24.
There is no error shown in the decision to charge the jury on the lesser
included offense of simple possession. Simple possession is a subset of the
charged offenses, containing many common elements. A rational jury could have
found that the government proved knowing possession of the drugs, absent a
finding of an intent to import or distribute them. See United States v. Arnt, 4 74
F.3d 1159, 1163 (9th Cir. 2007). Appellant's rights were not prejudiced and any
error was harmless, as the only guilty verdict was on the charged offenses. United
States v. Olano, 507 U.S. 725, 734 (1993). Notably, appellant asked for a lesser
included jury instruction.
In light of the above holdings, the district court did not err in denying
appellant's motion for a new trial.
Finally, appellant fails to show that the sentencing court abused its discretion
by finding him to be a minor rather than minimal participant or by imposing a
substantively unreasonable sentence. Gilmore admitted to being contacted by a
drug trafficker who attempted to recruit him. Gilmore also agreed via text message
to meet at the same hotel "as the first time" to pick up the truck he would drive
from Mexico to Phoenix, Arizona. The district court took into consideration

4
36

